No.

IN THE
SUPREME COURT OF THE UNITED STATES

NOAH PRIMEAUX — PETITIONER
vs.
STATE OF LOUISIANA — RESPONDENT®

PROOF OF SERVICE
I, Noah Primeaux #490098. do swear or declare that on this date, April 10, 2015, as required by
Supreme Court Rule 291 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceedings or
that party’s counsel, and on every other person required to be served, be depositing an envelope
containing the above documents in the United States mail property addressed to each of them and with
first-class postage prepaid.
The names and address of those served are as follows:
District Attorney’s Office 15th Judicial District Court
Parish ofAcadia
P.O. Box 3306
Lafayette, LA 70502-3306
I declare undo- penalty of perjury that the foregoing is true and correct.
Executed on May 3.2021.
(Signature)

